"Review of Rehability Health Services, Incorporateds Medicare Cost Report for the Outpatient Rehabilitation Facility Program in Texas for the Fiscal Year Ended September 30, 1998,"(A-06-00-00051)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Rehability Health Services, Incorporateds Medicare Cost
Report for the Outpatient Rehabilitation Facility Program in Texas for the Fiscal
Year Ended September 30, 1998," (A-06-00-00051)
June 29, 2001
Complete
Text of Report is available in PDF format (1.1 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that of $28.6 million of allocable expenses reported
in Rehability Health Services (RHS) Fiscal Year 1998 Medicare cost report,
$18.4 million was questioned primarily because RHS did not provide documentation
to support costs claimed, and certain clinic extension sites were not Medicare
certified to provide services to Medicare beneficiaries. As a result, a material
portion of the $5.5 million in Medicare payments to RHS for FY 1998 was not reimbursable.
We are providing Mutual of Omaha, the fiscal intermediary for RHS, with the necessary
information so it can apply the appropriate adjustments to RHS cost report,
recompute the costs of provider services, and determine the overpayment amount
for final settlement of the cost report. However, RHS voluntarily withdrew from
participation in the Medicare program, and along with its parent corporation, has
filed for Chapter 11 bankruptcy.